DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

ASSISTANT GENERAL COUNSEL

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL

TODD B. TATELMAN
DEPUTY GENERAL COUNSEL

MEGAN BARBERO
ASSOCIATE GENERAL COUNSEL

JOSEPHINE MORSE
ASSOCIATE GENERAL COUNSEL

219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

ADAM A. GROGG
ASSISTANT GENERAL COUNSEL

SARAH E. CLOUSE
ASSISTANT GENERAL COUNSEL

WILLIAM E. HAVEMANN
ASSISTANT GENERAL COUNSEL

JONATHAN B. SCHWARTZ
ATTORNEY

January 10, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

California, et al. v. Texas, et al., No. 19-840

Dear Mr. Harris:
The U.S. House of Representatives is a respondent supporting petitioner in the
above-captioned case. The House consents to the filing of any and all amicus briefs at the
certiorari stage of this case.
Thank you very much for your time and assistance on this matter.

Very truly yours,
/s/ Douglas N. Letter
Douglas N. Letter

